LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

February 1, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-222: GOLDMAN SACHS GROUP, INC., ET AL. V. ARKANSAS TEACHER
RETIREMENT SYSTEM, ET AL.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Financial Economists referenced above contains 3,478 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 1st day of February 2021.

